FEDERAL PUBLIC DEFENDER
EASTERN DISTRICT OF LOUISIANA
500 POYDRAS STREET, SUITE 318
HALE BOGGS FEDERAL BUILDING

NEW ORLEANS, LOUISIANA 70130
Claude J. Kelly
Federal Public Defender
Valerie Welz Jusselin
Samuel J. Scillitani
Jerrod Thompson-Hicks
Celia C. Rhoads
Samantha J. Kuhn
Warner B. Thompson
Annalisa Mirón
Assistant Federal Public Defenders
Maura M. Doherty
CJA Coordinating Attorney
Ada A. Phleger
Research and Writing Attorney

TOLL FREE (800) 296-4046
TELEPHONE
(504) 589-7930
FAX
(504) 589-2556

June 8, 2021
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Troy Kendrick, Jr. v. United States, No. 20-7667

Dear Mr. Harris:
I represent Petitioner Troy Kendrick, Jr. in the above-captioned case, which is currently pending
before this Court on a petition for a writ of certiorari. The respondent’s brief was filed on June 7,
2021. Pursuant to Rule 15.5, petitioner expressly waives the fourteen-day waiting period for
distribution of the case to the Court. I respectfully request that the Court distribute the case on its
next distribution date for in forma pauperis cases, which I understand to be June 9, 2021.
Thank you for your assistance.
Sincerely,
/s/ Samantha Kuhn
SAMANTHA J. KUHN
Assistant Federal Public Defender
Counsel of Record for Petitioner Troy Kendrick, Jr.
cc:

Elizabeth Prelogar, Acting Solicitor General of the United States
United States Department of Justice
(202) 514-2217
SupremeCtBriefs@usdoj.gov

